SIGTARP SURVEY DEMONSTRATES
THAT BANKS CAN PROVIDE
MEANINGFUL INFORMATION ON THEIR
USE OF TARP FUNDS




                        SIGTARP-09-001
                           JULY 20, 2009
               SIGTARP                                   July 20, 2009
               Office of the Special Inspector General
               for the Troubled Asset Relief Program
                                                         Survey Demonstrates that Banks Can Provide Meaningful
                                                         Information on Their Use of TARP Funds

Summary of Report: SIGTARP-09-001                        What SIGTARP Found
                                                         Although most banks reported that they did not segregate or track TARP fund
                                                         usage on a dollar-for-dollar basis, most banks were able to provide insights into
Why SIGTARP Did This Study                               their actual or planned use of TARP funds. Over 98% of survey recipients
The Troubled Asset Relief Program (“TARP”)               reported their actual uses of TARP funds.
was created by the Emergency Economic
Stabilization Act (“EESA”) of 2008, which                Many banks reported that TARP funds allowed them to increase lending for
was enacted on October 3, 2008. TARP
                                                         residential and commercial loans, small business loans, credit card loans, and
provided the Secretary of the Treasury with
various authorities to restore the liquidity and         other types of lending. Most firms reported multiple and sometimes interrelated
stability of the United States financial                 uses; a majority of respondents’ reported that they used the funds primarily for
system and stimulate lending. As of June 15,             lending, building capital reserves and investing, as highlighted below.
2009, the Department of Treasury
(“Treasury”) has provided about $330 billion                 •   More than 80 percent of the respondents cited the use of funds for
of TARP funds to more than 600 financial                         lending or how it helped them avoid reduced lending. Many banks
institutions.                                                    reported that lending would have been lower without TARP funds
                                                                 or would have come to a standstill.
The Congress and the public frequently ask
questions about how TARP funds have been
                                                             •   More than 40 percent of the respondents reported that they used
used. Accordingly, the objective of this report
was to address how TARP recipients have                          some TARP funds to help maintain the capital cushions and
used the funds received.                                         reserves required by their banking regulators to be able to absorb
                                                                 unanticipated losses.
In February 2009, SIGTARP sent survey
letters to more than 360 financial and other                 •   Nearly a third of the respondents reported that they used some
institutions that had completed TARP funding                     TARP funds to invest in agency-mortgage backed securities. These
agreements through January 2009. The survey                      actions provided immediate support of the lending and borrowing
instrument provided for open-ended                               activities of other banks and positioned the banks for increased
responses. The goal was to elicit as much                        lending later.
information as possible while allowing for
different conditions at each bank. This report
is limited to survey recipients that participated            •   A smaller number reported using some TARP funds to repay
in the Capital Purchase Program. The review                      outstanding loans–some because the TARP funds were a more
and analysis were confined to the survey                         cost-effective source of funds than their outstanding debt, and
responses which included supporting                              some because of pressure from a creditor to use the funds for that
documentation as provided, reported, and                         purpose.
certified by the TARP recipients. SIGTARP
plans additional work to further assess the                  •   Several banks reported using some TARP funds to buy other
actual use of funds. SIGTARP’s work was                          banks. One reported that this was a cost-effective way to acquire
performed in accordance with generally                           additional deposits that, in turn, would facilitate an even greater
accepted government auditing standards.                          amount of lending.
What SIGTARP Recommends                                      •   Some banks reported that they had not yet allocated funds for
SIGTARP is renewing and expanding on a                           lending and other activities due to the short time elapsed since the
recommendation previously made that
Treasury require TARP recipients to submit
                                                                 receipt of funds, the weak demand for credit, and the uncertain
periodic reports to Treasury on the uses of                      economic environment.
TARP funds, including what actions they
were able to take that they would not have               Although the respondents reported that lending was an important use of funds,
taken otherwise. The full text of the                    their responses generally did not quantify the amount of new lending or the
recommendation is included in the body of the            incremental difference in lending based on use of TARP funds. Moreover, their
report.                                                  responses represented their use or planned use at a single point in time and
                                                         could be subject to change depending on economic conditions.
In commenting on a draft of this report,
Treasury did not agree with the
recommendation. SIGTARP’s response to
Treasury’s position is included in the                    Special Inspector General for the Troubled Asset Relief Program
management comments section of this report.
Table of Contents

Introduction                                                        1

Banks Were Able To Provide Information on Their Use of TARP Funds    5

Conclusions and Recommendations                                     14

Management Comments and Audit Response                              14

Appendices
       A. Scope and Methodology                                     17

       B. How Banks Use Capital                                     19
       C. Survey Letter                                             22

       D. CPP Survey Recipients                                     24

       E. Reported Actual Use of Funds by Month of Disbursement,

          Asset Size, and Amount of Funding                         34

       F. Broad Impact of Receiving TARP Funds                      36

       G. Audit Team Members                                        37

       H. Management Comments                                       38




                                              i
Introduction
The Emergency Economic Stabilization Act of 2008 (“EESA”) 1 was enacted on October 3,
2008, authorizing the Secretary of the Treasury to establish the Troubled Asset Relief Program
(“TARP”) to purchase non-performing or troubled assets from financial institutions. However,
given the rapid deterioration of the financial markets in the fall of 2008, Treasury believed it
needed to move more swiftly. The result was the decision to inject equity capital into financial
institutions under its Capital Purchase Program (“CPP”) as it sought to stabilize financial
institutions and markets and to stimulate lending. Subsequently, a number of other initiatives
were undertaken. As of June 15, 2009, the Department of Treasury has provided about $330
billion to more than 600 financial institutions using funds authorized under EESA. Nearly $200
billion has been devoted to the CPP.

The Congress and the public frequently ask two questions regarding the investments made by the
Department of Treasury:

    •   What have program recipients done with the money they received from Treasury?

    •   Have the recipients complied with the executive compensation requirements as a
        condition of receiving the funds?

To address these questions, beginning on February 5, 2009, SIGTARP sent survey letters to 364
financial institutions that had completed TARP funding agreements through January 31, 2009.
This report addresses the responses of CPP recipients on the use of funds portion of the survey.
SIGTARP will issue a separate report on executive compensation compliance.


Background
The dramatic correction in the U.S. housing market in recent years precipitated a decline in the
price of financial assets that were associated with housing, in particular mortgage-backed
securities based on subprime loans. 2 As 2008 progressed, this led to an escalating crisis in the
financial markets. Some institutions found themselves so exposed that they were threatened with
failure—and some failed—because they were unable to raise needed capital as the value of their
portfolios declined. Other financial institutions– ranging from government-sponsored enterprises
to the largest of the Wall Street firms–were left holding “toxic” mortgages and/or securities that
became increasingly difficult to value, were illiquid, and potentially had little worth. Moreover,
investors stopped buying securities backed by mortgages and became reluctant to buy securities
backed by many other types of assets. Because of the uncertainty about the financial condition

1
  P.L. 110-343, October 3, 2008.
2
  Subprime loans are designed for borrowers who do not qualify for prime interest rates, such as borrowers who
have one or more of the following characteristics: weakened credit histories typically characterized by payment
delinquencies, previous charge-offs, judgments, or bankruptcies; low credit scores; high debt-burden ratios; or high
loan-to-value ratios. These loans were often not supported by documentation and carried less favorable terms to the
borrower such as higher interest rates. Many of these loans were often bundled into residential mortgage-backed
securities (“RMBS”) that were sold to investors including banks, hedge funds, insurance companies and retirement
fund systems.


                                                         1
and the solvency of financial entities, the fees banks charge each other to borrow money rose
dramatically, and inter-bank lending effectively came to a halt. 3 By late Summer 2008, the
potential ramifications of the financial crisis included failure of systemically significant financial
institutions; increased losses of individual savings; diminished corporate investments; and further
tightening of credit that would exacerbate the emerging global economic slowdown.

In response to the financial crisis, ESSA was enacted on October 3, 2008. EESA authorizes
Treasury to purchase and insure certain types of troubled assets to provide stability and prevent
disruptions in the economy and financial system, and to protect taxpayers. The purpose of EESA
was to give Treasury authority and facilities to restore liquidity and stability to the U.S. financial
system and to ensure that these activities were consistent with protecting home values, college
funds, retirement accounts, and life savings; preserving homeownership and promoting jobs and
economic growth; maximizing overall returns to U.S. taxpayers; and providing public
accountability for the exercise of authority under the act.

EESA gave the Secretary of the Treasury considerable discretion in determining both the type of
financial instrument purchased and the institution from which it would be bought. Accordingly,
within two weeks of EESA’s enactment, as the financial markets and credit markets continued to
deteriorate rapidly, Treasury’s initial strategy quickly evolved from purchasing troubled assets to
injecting capital into financial institutions to encourage them to build capital, increasing the flow
of financing to businesses and consumers and supporting the economy. Accordingly, Treasury
created the Capital Purchase Program (“CPP”) and subsequently expanded the scope of its
efforts under EESA to include a number of other program initiatives, such as support to
Systemically Significant Failing Institutions, the Targeted Investment Program, and the
Automotive Industry Financing Program. This audit report focuses on participants in Treasury’s
CPP.

The CPP funds were a primary source of new Tier 1 capital available to financial institutions
when credit losses were rapidly eating away at the existing capital of many firms and the ability
to raise private capital was severely constrained. Given the nationwide decline in real estate
values, many banks faced losing the stream of income they had enjoyed from homeowner
payments on mortgages. Moreover, they also faced being forced to recognize losses as they
foreclosed on properties and found that the resale value of the properties was often dramatically
lower than the amount of the loan. Similarly, the market for the mortgage-related securities had
also declined, and many of the securities the banks held could no longer be sold in the open
market for more than a fraction of what the banks had paid for them. 4

Banks use their capital funds for multiple purposes. With respect to lending and investing, capital
can also have a multiplier effect; one dollar in capital may generate multiple dollars in loans and
investments. It can seed lending and investments by combining with and leveraging other
sources of funds, such as relatively inexpensive bank deposits. One added dollar of Tier 1
capital can generate the potential for the bank to then issue an additional $10 in loans, because,
based on regulatory rules, a healthy bank that receives $1 million in TARP funds can then

3
  Without the ability to readily borrow funds, banks were more concerned about retaining cash and somewhat
reluctant to lend out funds.
4
  SIGTARP, “Quarterly Report to Congress,” April 21, 2009.


                                                       2
borrow up to $10 million to make new loans to consumers or businesses and still be deemed to
be adequately capitalized, as long as the regulator finds that overall capital is sufficient and that
the bank is able to absorb losses such as loan defaults. The bank could also leverage capital by
using the new capital to buy deposits from other banks, further increasing their ability to issue
new loans. For a more complete discussion regarding how banks use capital, see Appendix B.


Objectives
The audit and survey of TARP recipients was intended to obtain information from the recipients
regarding their use of TARP funds. Thus, our specific objective was to determine how TARP
recipients have used the funds received.


Scope
SIGTARP sent the survey to 364 financial institutions that had completed TARP funding
agreements through January 31, 2009. The recipients had been approved for funding through the
CPP, the Targeted Investment Program (“TIP”), the Systemically Significant Failing Institutions
(“SSFI”) program, and the Auto Industry Financing Program (“AIFP”). Over 73 percent of the
funding went to eight institutions, as is reflected below in Table 1.

Table 1: Recipients of SIGTARP Survey by Funding Received

    Amount of TARP Funds             Number of                Funding Amount           Percentage of
    Received                            Firms                        (billions)             funding
    Greater than $10 billion                   8                         $219.3                     73
    $1 billion to $9.9 billion                19                           $58.3                    20
    $100 million to $999 million              54                           $14.6                     5
    Less than $100 million                   283                            $6.6                     2
 Total                                      364                          $298.8                    100
Source: SIGTARP “Quarterly Report to Congress,” April 21, 2009.


Of the 364 firms surveyed, 360 (99 percent) were under the CPP program and directly
concentrated on banking; the other four included AIFP or SSFI recipients. 5 Accordingly, for
ease of presentation, this report focuses on the 360 CPP recipients. For a list of the 360 banks
that SIGTARP surveyed, see Appendix D.

We confined our review and analysis to the survey responses and supporting documentation as
provided, reported, and certified by the TARP recipients. Because of the goal to provide insights
into the use of funds as quickly as possible, SIGTARP generally did not review information or



5
  The other four firms were AIG, GM, GMAC, and Chrysler. These firms used TARP funds in various ways, such
as repaying loans, funding ongoing operations, improving capital ratios to acceptable regulatory levels and
continued lending. These firms will be the subject of a future SIGTARP report on the use of funds.


                                                     3
documentation beyond that provided by the respondents. 6 We did not attempt to verify
independently the accuracy of the statements made by the banks. Information on lending was
provided, but most of the responses did not quantify, on a dollar basis, the amount of lending or
the incremental difference in lending resulting from the TARP investment. This report does not
encompass or inquire about funds received from other government or non-government sources or
the extent to which such funding may have influenced the use of TARP funding.

The survey instrument primarily provided for open-ended responses to elicit in-depth data. This
was necessary because the institutions are widely diverse in terms of asset size, geography,
institution type, and institution-specific economic factors. As such, this approach permitted a
wide range of responses and flexibility with regard to the specific information and supporting
documentation provided. This data is not sufficient for statistical inferences; it should be
interpreted as more reflective of directional insights rather than statistically valid
characterizations of the TARP recipient’s use of funds. Because the objective of this report is
broad, the open-ended survey elicited differing levels of detail.

Many banks were concerned about business-sensitive information and requested confidentiality
of individual survey responses. Accordingly, pursuant to our legal obligations, SIGTARP is
unable in this report to attribute any results or comments to a specific institution. However,
SIGTARP is in the process of evaluating recipients’ claims of confidentiality and will provide
copies of the individual responses that will include information provided by the banks to the
maximum permitted by law. SIGTARP plans to post the responses, redacted as necessary, on its
website within 30 days.

For a more complete discussion of the audit scope and methodology, see Appendix A. For a
discussion of how banks use capital, see Appendix B. For a copy of the letter sent to recipients of
TARP funds through January 31, 2009, see Appendix C. For a list of TARP CPP recipients, see
Appendix D. For tables on reported use of funds by month of disbursement, asset sizes, and
amount of funding, see Appendix E. For reported broad benefits of receiving CPP funds, see
Appendix F. For the audit team members, see Appendix G. For a copy of comments from the
Department of Treasury, see Appendix H.




6
    SIGTARP plans additional work in this area.


                                                  4
Banks Were Able To Provide Meaningful
Information on Their Use of TARP Funds
Although most banks reported that they did not segregate or track TARP fund usage on a dollar-
for-dollar basis, most banks were able to provide insights into their actual or planned use of
TARP funds. Over 98 percent of survey recipients reported their actual uses of TARP funds. 7
The banks reported that TARP funds were primarily used for lending, capital reserves, and
investments, often citing multiple benefits. However, some banks reported that they had not yet
allocated funds for lending or other activities due to the short time that elapsed since the receipt
of funds, weakened demand for credit, and the uncertain economic environment. Other firms
reported more broadly on the overall benefits of the TARP funding, including actions they were
able to undertake or avoid, such as freezing or reducing lending. Nearly 30 percent of
respondents reported that their lending levels would have been lower without TARP funds. Table
2 highlights the major uses of funds as reported by the recipients.

Table 2: Reported Use of CPP Funds

    Category of Use                    Number of Institutions              Percentage of Institutions
    Lending                                        300                                   83
    Capital Cushion, other reserves                156                                   43
    Investments                                    110                                   31
    Debt Repayments                                52                                    14
 Acquisitions                                     15                                     4
Source: SIGTARP analysis of 360 survey responses.
Note: Numbers and percentages do not total because respondents reported multiple uses of funds.


The responses reflect the multiple uses of funds cited by individual TARP recipients. It is
important to note, however, that the numbers shown in Table 2 represent only the uses
specifically reported by banks; others may have made similar uses without specifically reporting
it. Respondents reported investment activities across all bank asset sizes and amounts of funding
received, as outlined in more detail in Appendix E.

Most Recipients Did Not Segregate TARP Funds from Other
Bank Capital
Under the terms of CPP, banks receiving TARP funds were not required to segregate TARP
funds or report on their use of such funds. Forty-four respondents, nonetheless, reported that they
segregated TARP funds from other bank funds. Approximately half of those respondents
recorded the TARP investment on the balance sheet as a discrete component of each bank’s

7
  Only six institutions did not report actual uses of TARP funds. Five of those six received TARP funds in January
2009 and reported expected future uses of TARP funds. One intends to return the funds but has not yet done so as
of June 15, 2009.


                                                         5
capital. Others cited efforts to segregate physically the funds in a separate account and to manage
them separately. One bank stated:

    • “[A] separate checking account was established at [the Bank] in to which the TARP
      funds were deposited. This account is tracked individually on the parent's books via a
      specific general ledger account. Thus, all activity is isolated and tracked for dispersals.
      On a monthly basis, the general ledger balance is reconciled to the account statement.”

More than half of the banks that reported physical segregation of funds, however, stated that
segregation was only a temporary measure pending future deployment of the funds.

The majority of recipients reported that they did not segregate TARP funds. They noted that, in
accordance with typical banking industry practices, they commingled the TARP funds with their
other capital and leveraged the funds to increase lending and/or make investments. Several banks
focused on what they perceived to be the impracticality of segregation. However, this did not
preclude respondents from providing information on the use of TARP funds. With regard to
segregation, one bank stated that it deposited the TARP funds into its Federal Reserve Bank
account, which it used to meet general funding needs. The bank noted that from a capital
perspective, the TARP preferred shares and related common warrants were clearly visible as
discrete components of their overall capital. At the same time, it also noted that, once received,
the cash associated with the TARP funding became indistinguishable from any other cash
sources. The following quotes provide context on the reasons that some banks did not segregate
TARP funds from other bank capital.

       •   “The capital we received from the U.S. Treasury was not segregated from other
           funds. We manage from a total balance sheet perspective, and capital investments are
           typically not segregated. We do not believe that such segregation is common practice
           in the industry, nor was it required pursuant to the agreements governing the
           Treasury's capital purchase.”

       •   “Upon receipt of the TARP proceeds, [the Bank] did not segregate those funds from
           other capital funds. We did not and do not believe that earmarking the specific funds
           is in the best interest of our shareholders and/or borrowing customer. Instead, by
           adding the TARP funds to our existing, already strong capital base, [the Bank] could
           effectively deliver on its mission of growing its balance sheet by providing retail and
           commercial depositors and borrowers in our market competitive financial products
           and services that foster appropriate, rational growth.”
        

The majority of recipients did not report any specific actions taken to track use of TARP funds.
They reported bank activities that were supported by TARP funds, but did not specify the portion
that represented TARP fund investment. Nearly 90 percent of banks reported some activities in
this manner. Some banks that reported in this regard were quite general in their responses, such
as the following bank comment: “…our actual use of TARP funds to date has been…to make
loans to credit worthy customers, and to facilitate resolution of problem assets on our books.”
Others provided more details about company activities, but did not give a dollar amount of
TARP funds spent or specify the portion of the activity that represented TARP fund investment.


                                                6
A few respondents, however, tracked actual lending figures as such. However, one bank, in a far
more typical response, described the difficulty in tracking lending as follows:

         •    “Although banks do use capital to lend, it is more precise to say that banks use capital
              to support their lending…it is a cushion against losses, and it is there to support and
              enable other borrowing in the form of deposit gathering and capital markets
              borrowing. In this regard,…banks actually lend more than just the amount of their
              total capital and their TARP capital investment amounts…it is also important to
              understand that because TARP CPP funds are commingled with other capital,
              deposits and funds from other sources, it is difficult to state categorically what
              specific funds are actually being used for, except to say…that they are being used for
              and in support of lending.”

Generally speaking, although there were exceptions, the information provided by the survey
respondents regarding the use of funds did not vary significantly among those who reported that
they segregated TARP funds from other funding sources and those who reported that they did
not segregate TARP funds.

Lending
Most recipients reported leveraging the TARP funds to support lending activities by continuing
lending or renewing and/or modifying existing loans. Some institutions reported that, without
TARP funds, lending activities would have come to a standstill or would have been curtailed.
For example, one respondent stated that “had we not received the TARP funds, we may not have
been able to fund as many residential loans or our liquidity would have been strained which
would have hampered our ability to make future loans.” Although some firms reported general
lending efforts and the preservation of lending levels, many institutions further subcategorized
their lending initiatives by residential lending, small business loans, credit cards, and other
categories, as shown in Table 3. However, the survey and responses did not result in sufficient
information to develop an overall aggregate amount of actual lending.

Table 3: Reported Lending Activities Supported by TARP Funds

 Lending Activity                               Number of                            Percentage of
                                               Institutions                           Institutions
 Residential Mortgage
                                                     103                                     29
 Activities
 Commercial Mortgages                                66                                      18
 Other Consumer Lending                              61                                      17
 Small Business Loans                                45                                      13
 Other Business Loans                                48                                      13
 Loan Modification                                   34                                      9
 Credit Cards                                         8                                      2
 Student Loans                                        6                                      2
Source: SIGTARP analysis of 360 survey responses.
Note: Numbers and percentages do not total because respondents reported multiple uses of funds.



                                                              7
The respondents most frequently cited using TARP funds to support origination of residential
mortgages, commercial mortgages, and small business loans. About 29 percent of the
respondents reported a focus on using TARP funds to support residential mortgages.
Additionally, another 9 percent stated that they have used TARP funds for mortgage loan
modification initiatives. Various responses cited using TARP funds for commercial mortgage
lending (18 percent) and small business lending (13 percent). These are some of SIGTARP’s
observations related to the categories of lending activities listed in Table 3:


       •   Residential lending: The incidence of residential mortgage lending was even greater
           when combined with reported loan modifications. Some institutions reported direct
           use of TARP funds for residential mortgage activities and for bolstering mortgage
           modification programs. For example, one bank commented that “since receiving
           TARP in December 2008, the bank has modified about $3 million of its existing loans
           to a structure that is sustainable and affordable for troubled borrowers.” Another bank
           reported that it was going to implement a home equity loan program designed to help
           customers remain in their homes and avoid foreclosure.

       •   Commercial lending: Nearly 20 percent of respondents reported that they used
           TARP funding for commercial lending activities. Commercial lending, the second
           most frequently cited category of lending, was broadly distributed across institutions
           of various sizes. Most often, firms provided general information related to
           commercial real estate. A few however, provided exact figures; for example, one
           firm reported funding two loans from TARP proceeds, including a commercial real
           estate loan for $820,000.

       •   Other consumer lending: Almost 17 percent of respondents reported deploying
           TARP funds for other consumer lending activities. When these consumer lending
           activities were reported more descriptively, the loans were often reported as auto
           loans, personal loans, or other lines of credit. One recipient reported a renewed focus
           on consumer lending, stating that they have “reentered the [state] market to expand
           our consumer automobile lending...and have increased our budgeted 2009 automobile
           loan production [by $90 million]. We expect to use the remaining TARP funds to
           continue to increase our automobile loan production...”.

       •   Small business lending: About 13 percent of the institutions–of various sizes and
           types–reported using some TARP funds to support small business lending. One
           smaller firm reported that it had used all the CPP funds for various lending activities,
           including $500,000 related to small business loans. A larger institution reported
           lending over $20 billion in new credit extensions, including commitments and
           renewals to 8,000 small and mid-sized businesses, governments, and non-profits.
           Another institution responded more generally, that it is using the TARP capital funds
           to renew and originate quality SBA loans, in addition to other lending.




                                                 8
Capital Cushion or Other Reserves
Regulators require banks to maintain certain capital cushion levels to be able to absorb
unanticipated losses and to protect against the risk of insolvency. Beyond that, banks may
leverage excess capital to engage in lending and investing to serve their customers and generate
more income. Many survey responses highlighted the importance of the TARP funds to the
bank’s capital base, and, by extension, the impact of the funds on lending.

As noted earlier in Table 2, more than 40 percent of banks reported using some TARP funds to
generate capital reserves to help the institution remain well-capitalized from a regulatory capital
perspective. In citing the use for capital purposes, various recipients emphasized the need to
retain capital as a buffer or cushion against loan losses or other unforeseen events in light of the
economic instability facing U.S. and international markets. For example, one institution reported
that “while some policymakers are encouraging banks to lend more, regulators have announced
that they expect banks to maintain significantly higher capital ratios as a buffer against a
potentially severe and prolonged recession.”

In addition, the respondents also disclosed a variety of other reasons for focusing on
strengthening capital. These reasons included concerns about the recessionary economic
environment, the anticipation of potential increases in regulatory capital requirements, the need
to better position themselves to absorb future credit losses, and preparing for the possibility of
continued capital availability constraints in the future. The following responses provide some
insights into the importance of having TARP funds to bolster capital reserves:

       •   Retain strong capital ratios: “During the second half of 2008, management became
           concerned about being able to retain its well capitalized risk based ratios because of
           the dramatic reduction in expected repayments.”

       •   Cushion against future losses: “[I]t was in the best interest of [the Bank’s]
           shareholders for the company to gain additional liquidity and a further capital cushion
           against the economic uncertainties that lay ahead.”

       •   Raise new capital otherwise not available in the market: “Absent an infusion of
           capital [the Bank] was unable to continue to meet the needs of its retail and
           commercial customer base. Opportunities to raise capital through private sources are
           virtually non-existent. Consequently, participating in the TARP enabled [the Bank]
           to continue to meet its customer needs.” Another bank noted that “none of this new
           lending would have been possible without the additional TARP capital, which helped
           us maintain our well capitalized rating while continuing our important lending
           programs.”

Some institutions listed measurable impacts of TARP funds on their capital ratios, while others
reported in general terms on how the direct infusion of TARP funds bolstered their reserve
positions.


                                                 9
Investments
Some recipients chose to support lending by investing in relatively safe and liquid securities or
debt, primarily Government Sponsored Enterprises (GSE), mortgage-backed securities (MBS),
agency debt, and municipal securities, as seen in Table 4. According to the banks, these
investments provided immediate support of the lending and borrowing activities of other
institutions, as described below.

Table 4: Reported Investment Activities Supported by TARP Funds
    Investment Activity                      Number of                         Percentage of
                                            Institutions                        Institutions
    Mortgage-backed Securities
                                                 88                                   24
    (Agency) 8
    Municipal Securities                         19                                    5
    Agency Debt                                  10                                    3
    Mortgage-backed Securities
                                                  8                                    2
    (Non-agency)
 Corporate Debt                                  6                                     2
Source: SIGTARP analysis of 360 survey responses.
Note: Numbers and percentages do not total because respondents reported multiple uses of funds.


Those that invested TARP funds in MBS tended to invest in the so-called “agency” securities–
those backed by Ginnie Mae, Fannie Mae, and Freddie Mac; only a few invested in private-label
MBS or corporate debt. Many characterized these investments in “agency” MBS and debt as
short-term. The recipient rationale for investing in these instruments included:

       • the consideration of safety and liquidity

       • the reasonableness of the return on the investment

       • the favorable regulatory capital treatment of those assets

       • the flexibility to use the securities as collateral to secure future loans

       •   the opportunity to redeploy the cash flows generated from these investments over time to
           support direct lending and other investment opportunities

One large entity reported that its multi-billion dollar investment in Fannie Mae MBS “helped to
provide liquidity to the secondary [mortgage] market 9 when Fannie Mae’s funding costs had

8
 In some cases, the respondent did not report which types of mortgage-backed securities were purchased. In these
cases, we captured the response as an agency MBS because those were the most common, and the market for non-
agency MBS was virtually frozen during the time period covered by the survey.


                                                       10
increased significantly.” Another recipient that purchased more than $2 billion of MBS
expressed the belief that these purchases assisted in the recovery and stabilization of the MBS
market. Many other recipients who expressed similar sentiments stated that investments in MBS
help to replenish funds to other lenders so that those lenders, in theory, could continue to
originate additional mortgage loans. Others sought to use the cash flows from these investments
to support lending. For example, one regional bank that used TARP funds to purchase more than
$80 million in MBS stated that “the intention of this initial use of funds was to invest in high
quality, low risk securities issued by [GSEs] to assure a reasonable return on these funds and to
establish a series of cash flows that could quickly and easily be redeployed into customer-based
commercial, mortgage and consumer loans as local economic conditions warrant.”

Although most recipients that reported investments deployed the TARP funds into mortgage–
related investments, a few reported investments in municipal securities with the intent of helping
local communities. One recipient strongly emphasized municipal bonds by investing around 14
percent of the TARP funds received in this manner, explaining that investing in municipal bonds
will provide much-needed funding for municipalities currently strained by the recession.

Debt Repayment
About 14 percent of TARP recipients reported using some of the funds to repay outstanding debt
obligations. More specifically, the respondents used the funds to reduce short-term borrowing,
repay loans to other financial institutions, retire or reduce letters of credit, and/or as replacement
financing for higher cost loans. Banks noted these reasons for repaying outstanding debt:

         •   improving the balance sheet while mitigating their liquidity risk

         •   external pressure to retire their outstanding debt obligations

         •   instructed by their creditors to use the TARP funds to pay off their loans

         •   lack of demand for lending

         •   to replace their outstanding debt with new, cheaper debt

Many banks were able to provide specific dollar amounts of TARP funds used for this purpose.
One bank reported using $75 million of TARP funds to reduce its short-term borrowings; another
used $55 million to pay down a revolving credit facility.

Acquisitions
Only 4 percent of institutions reported that they used TARP funds to complete acquisitions. The
most common theme emerging from responses related to acquisitions was that they were often
completed at FDIC’s encouragement or that the assets were acquired from FDIC. The majority
of the responding institutions shared perspectives similar to these:


9
 A secondary market is created when a bank sells a portion of their loans to a dealer, who pools the loans together
and sells portions of the loan pools as securities to investors. The secondary market serves as a source of cash for
banks, providing them money to make new loans.


                                                         11
       •   “We have also cooperated with the FDIC who asked us to commit resources to take
           on another failed bank…and continue to provide uninterrupted service to 6,400
           customers.”

       •   “Included in the deposit growth is our…purchase of approximately $180 million of
           deposits from the FDIC.”

       •    “Without TARP funds, it is unlikely that the Bank could have assisted the FDIC with
           the transaction while still meeting credit needs of existing customers.”

Only two institutions reported that their capital levels would have been sufficient to support
acquisitions without the TARP injection. One of them planned to acquire a number of bank
branches and was specific as to the investment costs and the benefit. Although noting that the
acquisitions would have occurred without the TARP funds, this institution expressed the view
that the acquisitions were an excellent use of the TARP funds because the additional deposits
acquired with the branches would (through leveraging) allow the bank to increase future lending
many times over the expected acquisition cost.

Reported Future Uses of TARP Funds
Nearly 78 percent of recipients reported future plans for deployment of TARP funds. They most
frequently cited lending and capital accumulation activities. Recipients that reported plans for
future deployment of TARP funds typically expected that lending activity would increase; almost
all of those institutions stated that they deployed or intend to deploy a portion of TARP funds to
support lending. Banks also indicated that they were less likely to use TARP funds for
investment in securities, debt repayments, and capital reserves in the future. Furthermore, more
respondents reported that they were actually considering using TARP funds to acquire another
bank than those who reported they already have done so.

Other banks reported that they had not yet allocated funds for lending and other activities
because of the short time elapsed since the receipt of funds, the demand for credit, and the
uncertain economic environment. In January 2009, 147 survey recipients received TARP funds,
sometimes only weeks before receiving the survey request. Accordingly, many of these
recipients had only a limited amount of time to deploy TARP funds fully. Some recipients
provided responses with perspectives on the timing of the survey and the time passed since the
receipt of funds, including a firm that made this request:

    • “Because this transaction closed only three weeks ago, we would respectfully ask that in
      reviewing our response, you do so in light of the very limited period of time that has
      passed between January 30, 2009 and the date of this letter.”

Other institutions provided insight into their initial limited ability to deploy TARP funds due to
the weakened demand for credit and the broader economy. One such bank stated that “our liquid
assets created by the capital injection are being invested nightly with the Federal Reserve until
such time as the economy and demand for loans within our markets returns and the capital can be
effectively employed.”




                                               12
Overall Benefits
Beyond specific details on their use of funds, banks also provided insights into the overall benefit
of the TARP funding, some of which were previously noted. Importantly, many recipients
addressed these questions:

     • What actions were they were able to take that they could not have taken without
       receiving the TARP funds?

     • Conversely, what actions were they able to avoid because of the infusion of TARP funds?

 For example, approximately two-thirds of those who addressed this question reported that,
without TARP funds, their lending levels would have been lower than levels they were able to
achieve with TARP funds. 10 A more complete summary of the broad impact of receiving TARP
funds—the actions that were possible to be taken, as well as the actions avoided––is provided in
Appendix F.

The importance of each of the benefits in terms of actions that could be taken or avoided in
return for receiving TARP funds is well summarized by the comments of one respondent:

         “At the outset TARP capital was viewed as providing three core elements.
         First, it would enhance the liquidity position as a source of long-term
         committed funding. Second, it would strengthen the balance sheet by
         bolstering the capital position, thus giving all key stakeholders (regulators,
         investors, debt investors, customers, employees) confidence in [the bank’s]
         ability to weather the current ‘economic storm.’ The final element is
         achieved only through satisfying the first two, and that is the ability to
         continue executing our strategic business model through serving customers
         and growing our core lending business.”




10
  106 respondents indicated at least one of the following categories reflected in Appendix F: Grow Lending,
Enhance Lending Activity, Reduce Loan Terms, Reduce Lending, Freezing Lending, or Exiting the Banking
Business.



                                                        13
Conclusions and Recommendations
Although most banks reported that they did not segregate or track TARP fund usage on a dollar-
for-dollar basis, they were able to report on actual or planned activities that were supported by
TARP funds as well as macro benefits associated with having the funds. These responses
demonstrate that banks can provide useful information to improve transparency over how they
use the TARP funds. The uses of funds identified in this report are as of a particular point in
time and that use could vary somewhat over time depending on changing economic
circumstances. Because of time constraints, many of the survey respondents had not yet
allocated all of their TARP funds as of the March 2009 response date. Furthermore, more than
250 institutions have received TARP funds since the survey was issued, including a $3.4 billion
dollar investment in insurance company through the Capital Purchase Program.

Treasury has engaged in ongoing efforts to obtain lending data from each TARP recipient, but
this tells only a small part of the story. It fails to recognize that TARP recipients do far more
with their TARP funds than simply originating loans: they have also used these funds in a
broader array of interrelated activities, as demonstrated in this audit, such as making investments,
acquiring other financial institutions, and simply maintaining the capital as a cushion against
future losses. SIGTARP has previously recommended that Treasury require all TARP recipients
to report on their use of TARP funds, but, with limited exceptions, Treasury has not done so.
Based on the survey responses, SIGTARP believes that this recommendation continues to be
essential to meet Treasury’s stated goal of bringing transparency to the TARP program and
informing the American people and their representatives in Congress on what is being done with
their investment.

To improve transparency over the use of funds, SIGTARP recommends that the Secretary of the
Treasury require TARP recipients to submit periodic reports to the Department of Treasury on
their uses of TARP funds, such as lending, investments, acquisitions and other activities,
including a description of what actions they were able to take that they would not have taken
without TARP funding.

SIGTARP also recommends that the Secretary of the Treasury require TARP recipients to retain
all supporting documentation in conjunction with any reporting requirement that Treasury may
impose.

Management Comments and Audit Response
In written comments on a draft of this report, Treasury’s Assistant Secretary for Financial
Stability did not express concurrence with the report’s recommendation but raised questions
regarding the information provided; this response was consistent with the Department’s previous
opposition to this recommendation as noted in SIGTARP’s Quarterly reports to the Congress.
For a copy of Treasury comments on a draft of this report, see Appendix H.




                                                14
In commenting on this report, the Assistant Secretary recognized that the report illustrated the
broad range of uses to which capital may be put, including building capital reserves and
supporting lending and making investments. Yet, at the same time, the Secretary suggested
caution in drawing conclusions from this data noting that “although it might be tempting to do
so, it is not possible to say that investment of TARP dollars resulted in particular loans,
investments or other activities by the recipient. “ He went on to use selectively a quote in the
report that most TARP recipients did not segregate TARP funds and that, once received, the cash
associated with the TARP funding became indistinguishable from any other case sources. He
further stated that “even if TARP investments could be traced to particular uses, those uses
cannot be said to be attributable to the TARP investment if the same expenditures would have
been made from other sources even in the absence of TARP funding.”

SIGTARP’s report clearly points out the diverse views of respondents regarding the fungibility
of TARP funds received and the difficulty of saying precisely which dollar was used for which
purpose. Nonetheless, SIGTARP’s report provides significant information on the use of funds
and notes that, with limited exceptions, the information provided by the survey respondents on
their use of funds did not vary significantly between those banks that reported they segregated
TARP funds from other funding sources and those that did not segregate TARP funds. Both
groups provided meaningful responses indicating their actual and planned use of funds.
SIGTARP finds it compelling that it received a 100 percent response rate to its survey and 98
percent of the respondents were able to describe wide ranging uses of their funds, typical of the
range of actions that banks would be expected to take in having received the funds at a time of
financial crisis in the country where the need to stabilize financial institutions and foster lending
was paramount. Moreover, they were able to speak broadly about the benefits of having
received the funds—both actions they were able to take as a result of receiving the funds as well
as actions avoided.

For Treasury to discount wholly SIGTARP’s results because a particular bank may not be able to
say which dollar was used for a specific purpose substantially underestimates a bank’s capacity
— on a practical level — to know how its resources are being utilized. Take the example of an
American family with a checking account. Because all of the family income goes into the same
account, the family cannot say with any precision which paycheck paid for which particular bill.
That does not mean, however, that the family cannot give meaningful information about what it
did with the sizeable bonus that the wife received at the end of the year. Such infusions of
money can be budgeted; such infusions can be used to do things that would not have been
possible without such infusion. Banks are no different, and indeed should be in a better position
to plan, and to track, how it will use a sizeable capital infusion. Stated another way, if a bank is
receiving an infusion of tens of millions, if not billions, of TARP dollars, that bank is very likely
to budget how it will be put to work and can likely give at least a general indication of what the
bank was able to do that it would not have but for that sizeable infusion. Treasury’s decision to
reject this information just because the bank may not be able to trace the exact dollars ignores
this common sense view.

It also ignores the data that was collected in this audit. Many of the banks’ responses revealed
uses to which the banks put the TARP funds that can be readily tested. If a bank reports that it
was able to repay a specific loan with TARP funds that it would not have been able to repay but



                                                 15
for TARP funds, that is a use that can be tested. If a bank reports that it took the TARP funds and
purchased agency MBS, that, too can be verified. If a bank states that it put the TARP funds into
its account at the Federal Reserve to save for future potential losses that too can be checked.
In sum, the fact that there may be some limitations on the precision of the data that could be
collected by requiring use of funds reporting does not mean that such reporting could not
generate meaningful information, including meaningful information that will not be captured by
Treasury’s lending snapshots.




                                                16
Appendix A—Scope and Methodology
SIGTARP performed this audit under the authority of Public Law 110-343, as amended, which
also incorporates the duties and responsibilities of inspectors general under the Inspector General
Act of 1978, as amended. This audit reports on the use of TARP funds by 360 institutions that
participated in TARP’s Capital Purchase Program. Our specific objective was to determine how
TARP recipients have used the funds received.

We conducted this audit from February to June 2009 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. Within the limitations noted below, we believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We contracted with Concentrance Consulting Group, Inc. (Concentrance) to
help us review and analyze the responses we received. We interacted and worked with the
Concentrance team at least weekly from April through June 2009 to help develop the analysis
and produce the report.

We developed a narrative survey letter that provided for open-ended responses to elicit in-depth
information. We chose this approach because the institutions are so wide in diversity in terms of
asset size, institution type, and institution-specific economic factors. Regarding the use of funds,
we asked each recipient to provide a narrative response that outlined:

    • whether they segregated TARP funds from other institutional funds

    • their actual use of TARP funds to date

    • their expected future use of unspent TARP funds

We also asked recipients to consider their anticipated use of TARP funds when they applied for
such funds, as well as any actions they have taken that they could not have taken without the
infusion of TARP funds. Furthermore, we encouraged recipients to make reference to any
statements to the media, shareholders, or others concerning their intended or actual use of TARP
funds, as well as any internal email, budgets, or memoranda describing anticipated use of funds.
Additionally, we asked recipients to segregate and preserve all documents referencing the use or
anticipated use of TARP funds–such as any internal email, budgets, or memoranda regarding
anticipated or actual use of TARP funds–and to provide copies of pertinent supporting
documentation (financial or otherwise) to support their response. We also asked each institution
to sign a statement attesting to the accuracy of the data. To determine the extent to which firms
segregated and tracked TARP funds, we analyzed the survey responses to determine the extent to
which the respondents reported that they segregated the TARP funds from other bank capital and
established a process for tracking specific uses of funds.

To determine how recipients reported their use or plans to use TARP funds, we identified a
number of common response categories and analyzed the various actions associated with the use


                                                17
of TARP funds, including general activities (such as general lending) and associated
subcategories (such as residential lending and small business lending). Similarly, we identified
investment categories, such as agency MBS, agency debt, and corporate debt. We took a number
of steps to ensure the consistency of our analysis. We developed a checklist for analysts to
review each survey response. If an analyst had questions related to a survey response, another
analyst reviewed the response; then they discussed these cases collectively until they reached
consensus agreement in interpreting the response relative to other responses. In addition, a
quality control team that was not involved in the analytical process reviewed all of the data
entries.


Limitations on Data
SIGTARP’s review and analysis was confined to the survey responses and supporting
documentation, as provided, reported, and certified by the TARP recipients. These data are not
sufficient for statistical inferences. They should be interpreted only as directional insights, not as
definitive characterizations of the TARP recipients’ use of funds. The survey did not encompass
or inquire about funds received from other government or non-government sources and the
extent to which such funding influenced the use of TARP funding.




                                                  18
Appendix B—How Banks Use Capital
Capital is an essential component of a bank’s financial capacity to sustain itself, grow, and serve
its customers. 11 Regulators and market participants recognize the critical role that capital plays
in supporting confidence in the health of banks and of the financial system. 12 Capital generally
provides at least three broad benefits:

     •   enabling the banks to absorb current and future losses while further protecting the
         interests of the bank’s creditors
     •   strengthening the bank’s capacity and willingness to lend
     •   providing added liquidity by injecting cash into the firm, thereby making funds available
         to address a variety of corporate funding needs, such as repayment of maturing debt
Federal banking regulators 13 have established minimum capital adequacy ratios to ensure that
banks can absorb a reasonable level of losses before becoming insolvent. 14 Therefore,
maintaining acceptable capital ratios protects depositors and other senior creditors while
enhancing the stability and efficiency of the U.S. financial system, especially during recessionary
times.

Federal banking regulators have traditionally focused upon “Tier 1” capital. Tier 1 capital
includes common stock, disclosed retained earnings, and qualifying perpetual preferred stock.
Additionally, Treasury and the banking regulators determined that qualifying U.S.-controlled
banks, savings associations, and certain savings and loan holding companies that issued senior
preferred stock to the Treasury under the CPP could include such capital instruments in meeting
their Tier 1 capital requirements. 15 Banks must consider a number of key factors in prudently
allocating Tier 1 capital. When considering deploying excess capital above the minimum
regulatory capital adequacy levels, a bank must balance two critical factors:

     1. Prior to issuing any dividend distributions or stock repurchases, the bank needs to
        maintain a capital cushion that can absorb unanticipated losses and protect against the
        risk of insolvency.

     2. The bank needs to leverage the excess capital to provide more lending and investing,
        potentially generating more income.

With respect to lending and investing, capital can have a multiplier effect; one dollar in capital
can generate multiple dollars in loans and investments. It can seed lending and investments by
combining with and leveraging other sources of funds, such as relatively inexpensive bank

11
   A bank's capital is also referred to as equity.
12
   Treasury, White Paper, “The Capital Assistance Program and Its Role in the Financial Stability Plan”
13
   The federal banking regulators are the Office of the Comptroller of the Currency, the Office of Thrift Supervision,
the Federal Reserve Board, and the Federal Deposit Insurance Corporation.
14
   Capital adequacy ratios are a quantification of the amount of a bank's capital presented as a percentage of its risk-
weighted credit exposures and are key measures of a bank's financial strength.
15
   Treasury Announces TARP Capital Purchase Program Description, October 14, 2008- HP-1207.


                                                          19
deposits. One added dollar of Tier 1 capital might generate the potential for the bank to then
issue an additional $10 in loans. That is because based on regulatory rules, a healthy bank that
receives $1 million in TARP funds can then borrow up to $10 million to make new loans to
consumers or businesses and still be deemed to be adequately capitalized, as long as the regulator
finds that overall capital is sufficient and that the bank is able to absorb losses such as loan
defaults. The bank could also leverage capital by using new capital to buy deposits from other
banks further increasing their ability to issue new loans.

The CPP funds were a primary source of new Tier 1 capital available to financial institutions
when credit losses were rapidly eroding the existing capital of many firms and the ability to raise
private capital was severely constrained. Given the nationwide decline in real estate values,
many banks faced losing the stream of income they had enjoyed from homeowner payments on
mortgages. Moreover, as they foreclosed on properties, they found that resale value of the
properties was often dramatically lower than the amount of the loan. Similarly, the market for the
mortgage-related securities had also declined, and many of the securities the banks held could no
longer be sold in the open market for more than a fraction of what the bank had paid for them. 16

The injection of new funding can strengthen the capital base of the recipient banks and provide
for added liquidity. Generally, a bank has sufficient liquidity if it can easily meet its needs for
funds by having readily available cash, loans, and securities that can be easily sold, or if it has
the ability to otherwise raise or borrow funds. Prior to the current recession, banks generally
were able to raise cash easily by borrowing and selling a wide array of assets without
government support. Banks used short-term and long-term secured (collateralized) loans and
unsecured debt funding, as well as securitization, 17 to generate and maintain liquidity, and thus
had more funds available for lending.

Securitization entails packaging loans into asset-backed securities, and the sale of these securities
provided a source of funds to banks. In the past, the ability to sell these loans as securities freed
up capital and funds for more lending. The failure of securitized assets, which include consumer
and business loans, has played a prominent role in the current credit crisis. The weakness in the
securitized asset market substantially can be traced back to the individual subprime borrowers
whose loans had been securitized. As the subprime borrowers began to miss their monthly loan
payments, the value of the securities backed by the borrowers’ loans began to lose value.
Throughout 2008, investors were losing confidence in these securities and therefore stopped
buying them. Many banks were dependent on the cash they received from selling their loans to
securities issuers or investors; when this market essentially disappeared, they were unable to
generate enough money to continue making new loans. 18

Consequently, the onset of the current credit contraction was also accompanied by a general
weakening of balance sheets of U.S. banks. A balance sheet provides a summary of a firm’s
financial position reflecting its assets, liabilities, and equity at a specific date. A number of key
factors contributed to balance sheet weaknesses, including

16
   SIGTARP, “Quarterly Report to Congress,” 4/21/2009.
17
   The process by which new securities are created by combining or bundling other financial assets together,
including loans, and selling the resulting financial instrument, usually in pieces, to investors.
18
   SIGTARP, “Quarterly Report to Congress,” 4/21/2009.


                                                        20
       •   the erosion of capital levels because of losses

       •   the inability of banks to sell many of the securities they held in the open market for more
           than a fraction of what they had paid 19
 
Accordingly, these securities remained on the balance sheets as investments, thereby tying up
precious capital and liquidity.

Under normal market conditions, bank capital fuels lending, and strong earnings give the firm
the opportunity to distribute dividends and repurchase shares. Dividend distribution and share
repurchases return capital to shareholders. However, the current recessionary environment,
future macroeconomic uncertainties, and continued credit losses made the distribution of capital
to shareholders and allocation to lending activities more challenging. To conserve capital, banks
may curtail dividends distribution to their common shareholders and stop repurchasing their
common shares. Additionally, firms were likely to reduce lending and investments.




19
     SIGTARP, “Quarterly Report to Congress,” 4/21/2009.


                                                       21
Appendix C––Survey Letter




                     22
23
Appendix D—CPP Survey Recipients
Table 5 provides information on the 360 CPP recipients that responded to the survey.

Table 5: CPP Recipient Respondents, Funds Received and Date

Institution Name                                             Funding (millions)       TARP Agreement Date
1st Constitution Bancorp                                                   $12.00                  12/23/2008
1st FS Corporation/ Mountain 1st Bank & Trust                              $16.00                  11/14/2008
                                     20
Alliance Financial Corporation                                             $27.00                  12/19/2008
                                21
American Express Company                                                $3,389.00                    1/9/2009
American State Bancshares                                                   $6.00                    1/9/2009
Ameris Bancorp/ Ameris Bank                                                $52.00                  11/21/2008
AmeriServ Financial, Inc                                                   $21.00                  12/19/2008
Associated Banc-Corp                                                     $525.00                   11/21/2008
Bancorp Rhode Island, Inc./Bank Rhode Island                               $30.00                  12/19/2008
BancTrust Financial Group, Inc./Bank Trust                                 $50.00                  12/19/2008
                  22
Bank of America                                                        $25,000.00                  10/28/2008
Bank of Commerce                                                            $3.00                   1/16/2009
Bank of Commerce Holdings                                                  $17.00                  11/14/2008
                        23
Bank of Marin Bancorp                                                      $28.00                   12/5/2008
                                      24
Bank of New York Mellon Corp                                            $3,000.00                  10/28/2008
BNC Bancorp/Bank of North Carolina                                         $31.00                   12/5/2008
Bank of the Ozarks, Inc.                                                   $75.00                  12/12/2008
Banner Corporation/Banner Bank                                           $124.00                   11/21/2008
Bar Harbor Bankshares/Bar Harbor Bank & Trust                              $19.00                   1/16/2009
             25
BB&T Corp.                                                              $3,134.00                  11/14/2008
BCSB Bancorp, Inc.                                                         $11.00                  12/23/2008
                                26
Berkshire Hills Bancorp, Inc.                                              $40.00                  12/19/2008
Blue Valley Ban Corp                                                       $22.00                   12/5/2008
BNCCORP, Inc.                                                              $20.00                   1/16/2009
Boston Private Financial Holdings Inc.                                   $154.00                   11/21/2008
Bridge Capital Holdings                                                    $24.00                  12/23/2008
Bridgeview Bancorp, Inc./ Bridgeview Bank Group                            $38.00                  12/19/2008
Broadway Financial Corporation/ Broadway Federal Bank                       $9.00                  11/14/2008
C&F Financial Corporation                                                  $20.00                    1/9/2009
Cache Valley Banking Company                                                $5.00                  12/23/2008



20
   Repaid Treasury on May13, 2009.
21
   Repaid Treasury on June 17, 2009.
22
   Bank of America received $15 billion on October 28, 2008, and $10 billion on January 9, 2009.
23
   Repaid Treasury on March 31, 2009.
24
   Repaid Treasury on June 17, 2009.
25
   Repaid Treasury on June 17, 2009.
26
   Repaid Treasury on May 27, 2009.
Note: Funding numbers provided reflect some rounding.


                                                        24
Institution Name                                              Funding (millions)    TARP Agreement Date
Cadence Financial Corporation                                             $44.00                  1/9/2009
Capital Bancorp, Inc.                                                       $5.00               12/23/2008
Capital Bank                                                              $41.00                12/12/2008
                                    27
Capital One Financial Corporation                                       $3,555.00               11/14/2008
Capital Pacific Bancorp                                                     $4.00               12/23/2008
Carolina Bank Holdings, Inc.                                              $16.00                  1/9/2009
Carver Bancorp, Inc.                                                      $19.00                 1/16/2009
Cascade Financial Corporation                                             $39.00                11/21/2008
Cathay General Bancorp/ Cathay Bank                                      $258.00                 12/5/2008
Cecil Bancorp, Inc.                                                       $12.00                12/23/2008
Center Bancorp, Inc.                                                      $10.00                  1/9/2009
Center Financial Corporation/Center Bank                                  $55.00                12/12/2008
Centerstate Banks of Florida Inc.                                         $28.00                11/21/2008
                                                    28
Centra Financial Holdings, Inc./Centra Bank, Inc.                         $15.00                 1/16/2009
Central Bancorp, Inc./Central Co-operative Bank                           $10.00                 12/5/2008
Central Federal Corporation                                                 $7.00                12/5/2008
Central Jersey Bancorp                                                    $11.00                12/23/2008
Central Pacific Financial Corp.                                          $135.00                  1/9/2009
Centrue Financial Corporation                                             $33.00                  1/9/2009
CIT Group Inc.                                                          $2,330.00               12/31/2008
Citigroup Inc./Citibank National Association                           $25,000.00               10/28/2008
Citizens & Northern Corporation                                           $26.00                 1/16/2009
Citizens Bancorp                                                          $10.00                12/23/2008
Citizens Community Bank                                                     $3.00               12/23/2008
Citizens First Corporation                                                  $9.00               12/19/2008
Citizens Republic Bancorp, Inc.                                          $300.00                12/12/2008
Citizens South Bank                                                       $21.00                12/12/2008
City National Corporation                                                $400.00                11/21/2008
Coastal Banking Company, Inc.                                             $10.00                 12/5/2008
CoBiz Financial Inc.                                                      $64.00                12/19/2008
Codorus Valley Bancorp, Inc.                                              $17.00                  1/9/2009
Colony Bankcorp, Inc./Colony Bank                                         $28.00                  1/9/2009
Columbia Banking System Inc.                                              $77.00                11/21/2008
Comerica Inc.                                                           $2,250.00               11/14/2008
Commerce National Bank                                                      $5.00                 1/9/2009
Community 1st Bank                                                          $3.00                1/16/2009
Community Bank of the Bay                                                   $2.00                1/16/2009
Community Bankers Trust Corporation                                       $18.00                12/19/2008
Community Financial Corporation/Community Bank                            $12.64                12/19/2008
Community Investors Bancorp, Inc.                                           $3.00               12/23/2008
Community Trust Financial Corporation                                     $24.00                  1/9/2009
Community West Bancshares                                                 $16.00                12/19/2008
Congaree Bancshares, Inc.                                                   $3.00                 1/9/2009


27
     Repaid Treasury on June 17, 2009.
28
     Repaid Treasury on March 31, 2009.


                                                         25
Institution Name                                                    Funding (millions)    TARP Agreement Date
Crescent Financial Corporation                                                  $25.00                  1/9/2009
Crossroads Bank (FFW Corporation)                                                $7.29                12/19/2008
CVB Financial Corp                                                             $130.00                 12/5/2008
Dickinson Financial Corporation II                                             $146.00                 1/16/2009
Eagle Bancorp, Inc.                                                             $38.00                 12/5/2008
East West Bancorp                                                              $307.00                 12/5/2008
Eastern Virginia Bankshares, Inc.                                               $24.00                  1/9/2009
ECB Bancorp, Inc./East Carolina Bank                                            $18.00                 1/16/2009

Emclaire Financial Corp./The Farmers National Bank of
Emlenton                                                                         $8.00                12/23/2008
Encore Bancshares Inc.                                                          $34.00                 12/5/2008
Enterprise Financial Services Corp./ Enterprise Bank & Trust                    $35.00                12/19/2008
Exchange Bank                                                                   $43.00                12/19/2008
F.N.B. Corporation                                                             $100.00                  1/9/2009
Farmers Capital Bank Corporation                                                $30.00                  1/9/2009
FCB Bancorp, Inc.                                                                $9.00                12/19/2008
Fidelity Bancorp, Inc.                                                           $7.00                12/12/2008
Fidelity Financial Corporation                                                  $36.00                12/19/2008
Fidelity Southern Corporation                                                   $48.00                12/19/2008
Fifth Third Bancorp                                                           $3,408.00               12/31/2008
Financial Institutions, Inc.                                                    $38.00                12/23/2008
First Bancorp, North Carolina                                                   $65.00                  1/9/2009
First BanCorp, Puerto Rico                                                     $400.00                 1/16/2009
First Bankers Trustshares, Inc.                                                 $10.00                 1/16/2009
First Banks, Inc.                                                              $295.00                12/31/2008
First California Financial Group, Inc                                           $25.00                12/19/2008
First Community Bancshares Inc.                                                 $42.00                11/21/2008
First Community Bank Corporation                                                $11.00                12/23/2008
First Community Corporation                                                     $11.00                11/21/2008
First Defiance Financial Corp.                                                  $37.00                 12/5/2008
First Financial Bancorp                                                         $80.00                12/23/2008
First Financial Holdings Inc.                                                   $65.00                 12/5/2008
First Financial Service Corporation                                             $20.00                  1/9/2009
First Horizon National Corporation                                             $867.00                11/14/2008
First Litchfield Financial Corporation                                          $10.00                12/12/2008
                                 29
First Manitowoc Bancorp, Inc.                                                   $12.00                 1/16/2009
First Midwest Bancorp, Inc.                                                    $193.00                 12/5/2008
                                 30
First Niagara Financial Group                                                  $184.00                11/21/2008
First PacTrust Bancorp, Inc.                                                    $19.00                11/21/2008
First Security Group, Inc.                                                      $33.00                  1/9/2009
First Sound Bank                                                                 $7.00                12/23/2008
                         31
Firstmerit Corporation                                                         $125.00                  1/9/2009


29
   Repaid Treasury on May 27, 2009.
30
   Repaid Treasury on May 27, 2009.
31
   Repaid Treasury on April 22, 2009.


                                                               26
Institution Name                                                   Funding (millions)    TARP Agreement Date
Flushing Financial Corporation                                                 $70.00                12/19/2008
FPB Bancorp, Inc.                                                               $6.00                 12/5/2008
Fulton Financial Corporation                                                  $377.00                12/23/2008
                         32
Goldman Sachs & Co.                                                         $10,000.00               10/28/2008
GrandSouth Bancorporation                                                        $9.00                 1/9/2009
Great Southern Bancorp/ Great Southern Bank                                    $58.00                 12/5/2008
Green Bankshares, Inc.                                                         $72.00                12/23/2008
Hampton Roads Bankshares, Inc.                                                 $80.00                12/31/2008
Hawthorn Bancshares, Inc.                                                      $30.00                12/19/2008
Heartland Financial USA, Inc.                                                  $82.00                12/19/2008
Heritage Commerce Corp.                                                        $40.00                11/21/2008
Heritage Financial Corporation                                                 $24.00                11/21/2008
                    33
HF Financial Corp                                                              $25.00                11/21/2008
HMN Financial, Inc.                                                            $26.00                12/23/2008
Home Bancshares, Inc.                                                          $50.00                 1/16/2009
HopFed Bancorp                                                                 $18.00                12/12/2008
Horizon Bancorp                                                                $25.00                12/19/2008
Huntington Bancshares                                                        $1,398.00               11/14/2008
                         34
Iberiabank Corporation                                                         $90.00                 12/5/2008
Idaho Bancorp                                                                    $7.00                1/16/2009
Independence Bank                                                               $1.00                  1/9/2009
                              35
Independent Bank Corp.                                                         $78.00                  1/9/2009
Independent Bank Corporation                                                   $72.00                12/12/2008
Indiana Community Bancorp                                                      $22.00                12/12/2008
Intermountain Community Bancorp/Panhandle State Bank                           $27.00                12/19/2008

International Bancshares Corporation/ International Bank of
Commerce                                                                      $216.00                12/23/2008
Intervest Bancshares Corporation                                               $25.00                12/23/2008
                              36
JP Morgan Chase & Co.                                                       $25,000.00               10/28/2008
KeyCorp/Keybank National Association                                         $2,500.00               11/14/2008
LCNB Corp.                                                                     $13.00                  1/9/2009
Leader Bancorp, Inc./Leader Bank, National Association                          $6.00                12/23/2008
LNB Bancorp Inc.                                                               $25.00                12/12/2008
LSB Corporation                                                                $15.00                12/12/2008
M&T Bank Corporation                                                          $600.00                12/23/2008
Magna Bank                                                                     $14.00                12/23/2008
MainSource Financial Group, Inc.                                               $57.00                 1/16/2009
Manhattan Bancorp                                                               $2.00                 12/5/2008
Marquette National Corporation                                                 $36.00                12/19/2008
Marshall & Ilsley Corporation                                                $1,715.00               11/14/2008



32
   Repaid Treasury on June 17, 2009.
33
   Repaid Treasury on June 3, 2009.
34
   Repaid Treasury on March 31, 2009.
35
   Repaid Treasury on April 22, 2009.
36
   Repaid Treasury on June 17, 2009.


                                                              27
Institution Name                                             Funding (millions)    TARP Agreement Date
MB Financial Inc.                                                       $196.00                 12/5/2008
MetroCorp Bancshares, Inc.                                               $45.00                 1/16/2009
Mid Penn Bancorp, Inc.                                                   $10.00                12/19/2008
MidSouth Bancorp, Inc.                                                   $20.00                  1/9/2009
Midwest Banc Holdings, Inc.                                              $85.00                 12/5/2008
Mission Community Bancorp/Mission Community Bank                          $5.00                  1/9/2009
Mission Valley Bancorp/ Mission Valley Bank                               $6.00                12/23/2008
Monadnock Bancorp, Inc.                                                   $2.00                12/19/2008
Monarch Financial Holdings, Inc.                                         $15.00                12/19/2008
                 37
Morgan Stanley                                                        $10,000.00               10/28/2008
Morrill Bancshares, Inc.                                                 $13.00                 1/16/2009
MutualFirst Financial, Inc.                                              $32.00                12/23/2008
Nara Bancorp, Inc.                                                       $67.00                11/21/2008
National Penn Bancshares, Inc.                                          $150.00                12/12/2008
NCAL Bancorp                                                             $10.00                12/19/2008
New Hampshire Thrift Bancshares, Inc.                                    $10.00                 1/16/2009
New York Private Bank & Trust Corp. / Emigrant Bank                     $267.00                  1/9/2009
NewBridge Bancorp/New Bridge Bank                                        $52.00                12/12/2008
Nicolet Bankshares, Inc./Nicolet National Bank                           $15.00                12/23/2008
North Central Bancshares, Inc.                                           $10.00                  1/9/2009
Northeast Bancorp                                                         $4.00                12/12/2008
                              38
Northern Trust Corporation                                             $1,576.00               11/14/2008
Oak Valley Bancorp                                                       $14.00                 12/5/2008
OceanFirst Financial Corporation                                         $38.00                 1/16/2009
Old Line Bancshares, Inc.                                                 $7.00                 12/5/2008
                       39
Old National Bancorp                                                    $100.00                12/12/2008
Old Second Bancorp, Inc.                                                 $73.00                 1/16/2009
One United Bank                                                          $12.00                12/19/2008
Pacific Capital Bancorp                                                 $181.00                11/21/2008
Pacific City Financial Corporation/ Pacific City Bank                    $16.00                12/19/2008
Pacific Coast Bankers' Bancshares                                        $12.00                12/23/2008
Pacific Coast National Bancorp                                            $4.00                 1/16/2009
Pacific Commerce Bank                                                     $4.00                12/23/2008
Pacific International Bancorp                                             $7.00                12/12/2008
Park National Corporation                                               $100.00                12/23/2008
Parkvale Financial Corporation                                           $32.00                12/23/2008
Patapsco Bancorp, Inc.                                                    $6.00                12/19/2008
Patriot Bancshares, Inc./ Patriot Bank                                   $26.00                12/19/2008
Peapack-Gladstone Financial Corporation                                  $29.00                  1/9/2009
Peoples Bancorp of North Carolina, Inc.                                  $25.00                12/23/2008
Pinnacle Financial Partners, Inc.                                        $95.00                12/12/2008
Plains Capital Corporation                                               $88.00                12/19/2008


37
   Repaid Treasury on June 17, 2009.
38
   Repaid Treasury on June 17, 2009.
39
   Repaid Treasury on March 31, 2009.


                                                        28
Institution Name                                                 Funding (millions)    TARP Agreement Date
PNC Financial Services Group Inc.                                          $7,579.00               12/31/2008
Popular, Inc.                                                               $935.00                 12/5/2008
Porter Bancorp, Inc.(PBI) Louisville, KY                                     $35.00                11/21/2008
Provident Banshares Corp.                                                   $152.00                11/14/2008
Puget Sound Bank                                                              $5.00                 1/16/2009
Pulaski Financial Corp                                                       $33.00                 1/16/2009
Queensborough Company, The                                                   $12.00                  1/9/2009
Redwood Capital Bancorp                                                       $4.00                 1/16/2009
Redwood Financial, Inc.                                                       $3.00                  1/9/2009
Regions Financial Corp./ Regions Bank                                      $3,500.00               11/14/2008
Rising Sun Bancorp                                                            $6.00                  1/9/2009
S&T Bancorp                                                                 $109.00                 1/16/2009
Saigon National Bank                                                          $2.00                12/23/2008
Sandy Spring Bancorp, Inc.                                                   $83.00                 12/5/2008
Santa Lucia Bancorp                                                           $4.00                12/19/2008
                               40
SCBT Financial Corporation                                                   $65.00                 1/16/2009

Seacoast Banking Corporation of Florida/Seacoast National
Bank                                                                         $50.00                12/19/2008
Seacoast Commerce Bank                                                        $2.00                12/23/2008

Security Business Bancorp/Security Business Bank of San
Diego                                                                         $6.00                  1/9/2009
Security California Bancorp/ Security Bank of California                      $7.00                  1/9/2009
Security Federal Corporation                                                 $18.00                12/19/2008
Severn Bancorp, Inc.                                                         $23.00                11/21/2008
                          41
Shore Bancshares, Inc.                                                       $25.00                  1/9/2009
                     42
Signature Bank                                                              $120.00                12/12/2008
                          43
Somerset Hills Bancorp                                                        $7.00                 1/16/2009
Sound Banking Company                                                         $3.00                  1/9/2009
South Financial Group, Inc./ Carolina First Bank                            $347.00                 12/5/2008
Southern Bancorp, Inc.                                                       $11.00                 1/16/2009

Southern Community Financial Corp./ Southern Community
Bank & Trust                                                                 $43.00                 12/5/2008

Southern Missouri Bancorp, Inc./ Southern Missouri Bank &
Trust Co.                                                                    $10.00                 12/5/2008
Southwest Bancorp, Inc.                                                      $70.00                 12/5/2008
State Bancorp, Inc./State Bank of Long Island                                $37.00                 12/5/2008
State Bank & Trust/State Bankshares, Inc.                                    $50.00                 1/16/2009
                44
State Street                                                               $2,000.00               10/28/2008
StellarOne Corporation                                                       $30.00                12/19/2008
Sterling Bancorp                                                             $42.00                12/23/2008
                                          45
Sterling Bancshares, Inc./Sterling Bank                                     $125.00                12/12/2008

40
   Repaid Treasury on May 20, 2009.
41
   Repaid Treasury on April 15, 2009.
42
   Repaid Treasury on March 31, 2009.
43
   Repaid Treasury on May 20, 2009.
44
   Repaid Treasury on June 17, 2009.


                                                            29
Institution Name                                            Funding (millions)    TARP Agreement Date
Sterling Financial Corporation/Sterling Savings Bank                   $303.00                 12/5/2008
Summit State Bank                                                        $9.00                12/19/2008
                    46
Sun Bancorp, Inc                                                        $89.00                  1/9/2009
SunTrust Banks, Inc.                                                  $4,850.00               12/31/2008
Superior Bancorp Inc.                                                   $69.00                 12/5/2008
Surrey Bancorp/Surrey Bank & Trust                                       $2.00                  1/9/2009
Susquehanna Bancshares, Inc                                            $300.00                12/12/2008
SVB Financial Group                                                    $235.00                12/12/2008
Synovus Financial Corp./ Columbus Bank & Trust Co.                     $968.00                12/19/2008
Syringa Bancorp                                                          $8.00                 1/16/2009
Taylor Capital Group                                                   $105.00                11/21/2008
TCB Holding Company, Texas Community Bank                               $12.00                 1/16/2009
                            47
TCF Financial Corporation                                              $361.00                11/14/2008

TCNB Financial Corp/The Citizens National Bank of
Southwestern Ohio                                                        $2.00                12/23/2008

Tennessee Commerce Bancorp, Inc./ Tennessee Commerce
Bank                                                                    $30.00                12/19/2008
Tennessee Valley Financial Holdings, Inc.                                $3.00                12/23/2008
                                 48
Texas Capital Bancshares, Inc.                                          $75.00                 1/16/2009
Texas National Bancorporation                                            $4.00                  1/9/2009
The Bancorp, Inc./The Bancorp Bank                                      $45.00                12/12/2008
The Baraboo Bancorporation                                              $21.00                 1/16/2009
The Connecticut Bank and Trust Company                                   $5.00                12/19/2008
The Elmira Savings Bank, FSB                                             $9.00                12/19/2008
The First Bancorp, Inc.                                                 $25.00                  1/9/2009
The Little Bank, Incorporated                                            $8.00                12/23/2008
TIB Financial Corp/TIB Bank                                             $37.00                 12/5/2008
Tidelands Bancshares, Inc                                               $14.00                12/19/2008
Timberland Bancorp, Inc.                                                $17.00                12/23/2008
TowneBank                                                               $76.00                12/12/2008
Treaty Oak Bankcorp, Inc                                                 $3.27                 1/16/2009
Tri-County Financial Corporation                                        $16.00                12/19/2008
Trustmark Corporation                                                  $215.00                11/21/2008
               49
U.S. Bancorp                                                          $6,599.00               11/14/2008
UCBH Holdings, Inc.                                                    $299.00                11/14/2008
Umpqua Holdings Corp.                                                  $214.00                11/14/2008
Union Bankshares Corporation                                            $59.00                12/19/2008
United Bancorp, Inc.                                                    $21.00                 1/16/2009
United Bancorporation of Alabama, Inc.                                  $10.00                12/23/2008
United Community Banks, Inc.                                           $180.00                 12/5/2008



45
   Repaid Treasury on May 5, 2009.
46
   Repaid Treasury on April 8, 2009.
47
   Repaid Treasury on April 22, 2009.
48
   Repaid Treasury on May 13, 2009.
49
   Repaid Treasury on June 17, 2009.


                                                       30
Institution Name                                                Funding (millions)    TARP Agreement Date
United Financial Banking Companies, Inc.                                     $6.00                 1/16/2009
Unity Bancorp, Inc./Unity Bank                                              $21.00                 12/5/2008
Uwharrie Capital Corp/Bank of Stanly                                        $10.00                12/23/2008
Valley Community Bank                                                        $6.00                  1/9/2009
Valley Financial Corporation                                                $16.00                12/12/2008
                          50
Valley National Bancorp                                                    $300.00                11/14/2008
Virginia Commerce Bancorp                                                   $71.00                12/12/2008
VIST Financial Corp./VIST Bank                                              $25.00                12/19/2008
Wainwright Bank & Trust Company                                             $22.00                12/19/2008
Washington Banking Company/ Whidbey Island Bank                             $26.00                 1/16/2009

Washington Federal Inc./ Washington Federal Savings &
                 51
Loan Association                                                           $200.00                11/14/2008
Webster Financial Corporation                                              $400.00                11/21/2008
Wells Fargo Bank                                                         $25,000.00               10/28/2008
Wesbanco Bank Inc.                                                          $75.00                 12/5/2008
West Bancorporation, Inc.                                                   $36.00                12/31/2008
Western Alliance Bancorporation/Bank of Nevada                             $140.00                11/21/2008
Western Community Bancshares, Inc.                                            $7.00               12/23/2008
Western Illinois Bancshares Inc.                                             $7.00                12/23/2008
Whitney Holding Corporation                                                $300.00                12/19/2008
Wilmington Trust Corporation                                               $330.00                12/12/2008
Wilshire Bancorp, Inc.                                                      $62.00                12/12/2008
Wintrust Financial Corporation                                             $250.00                12/19/2008
Yadkin Valley Financial Corporation                                         $36.00                 1/16/2009
Zions Bancorporation                                                      $1,400.00               11/14/2008
1st Source Corporation                                                     $111.00                 1/23/2009
AB&T Financial Corporation/Alliance Bank & Trust Company                      $4.00                1/23/2009
Adbanc, Inc                                                                 $12.70                 1/29/2009
Alarion Financial Services, Inc.                                             $7.00                 1/23/2009
AMB Financial Corporation                                                     $3.67                1/30/2009
Anchor BanCorp Wisconsin, Inc.                                             $110.00                 1/30/2009
Annapolis Bancorp, Inc.                                                     $81.50                 1/30/2009
Bankers' Bank of the West Bancorp, Inc.                                     $12.64                 1/30/2009
BankFirst Capital Corporation                                               $16.00                 1/23/2009
Beach Business Bank                                                          $6.00                 1/30/2009
California Oaks State Bank                                                    $3.30                1/23/2009
Calvert Financial Corporation                                                 $1.00                1/23/2009
Calwest Bancorp/South County Bank                                            $5.00                 1/23/2009
Central Bancshares, Inc                                                       $5.80                1/30/2009
Central Valley Community Bancorp                                             $7.00                 1/30/2009
Central Virginia Bankshares, Inc.                                           $11.39                 1/30/2009
Commonwealth Business Bank                                                   $8.00                 1/23/2009
Community Partners Bancorp                                                    $9.00                1/30/2009


50
     Repaid Treasury on June 3, 2009.
51
     Repaid Treasury on May 27, 2009.


                                                           31
Institution Name                                                Funding (millions)   TARP Agreement Date
Country Bank Shares, Inc./Farmers&Merchants Bank                             $7.53               1/30/2009
Crosstown Holding Company/21st Century Bank                                 $11.00               1/23/2009
DNB Financial Corporation                                                   $11.75               1/30/2009
Equity Bancshares                                                            $8.75               1/30/2009
Farmer's and Merchants/F & M Bancshares, Inc.                                $4.61               1/30/2009
Farmers Bank                                                                 $9.00               1/23/2009
First Citizens Banc Corp                                                    $23.00               1/23/2009
First Resource Bank                                                          $2.60               1/30/2009
First Southern Bancorp, Inc.                                                $10.90               1/30/2009
                  52
First ULB Corp.                                                              $5.00               1/23/2009
First United Corporation                                                    $30.00               1/30/2009
Firstbank Corporation                                                       $33.00               1/30/2009
Flagstar Bancorp, Inc.                                                     $266.66               1/30/2009
FPB Financial Corp                                                           $3.00               1/23/2009
Fresno First Bank                                                            $2.00               1/23/2009
Goldwater Bank, NA                                                           $2.57               1/30/2009
Greer Bancshares Incorporated                                                $9.99               1/30/2009
Guaranty Federal Bancshares, Inc.                                           $17.00               1/30/2009
HillTop Community Bancorp,Inc.                                               $4.00               1/30/2009
Katahdin Bankshares Corp.                                                   $10.45               1/30/2009
Legacy Bancorp, Inc.                                                         $5.50               1/30/2009
Liberty Bancshares, Inc.                                                    $58.00               1/23/2009
Metro City Bank                                                              $7.70               1/30/2009
Middleburg Financial Corporation                                            $22.00               1/30/2009
Midland States Bancorp, Inc.                                                $10.00               1/23/2009
Monument Bank                                                                $4.73               1/30/2009
Moscow Bancshares, Inc.                                                      $6.00               1/23/2009
Northway Financial,Inc.                                                     $10.00               1/30/2009
Oak Ridge Financial Services, Inc.                                           $7.70               1/30/2009
Ojai Community Bank                                                          $2.08               1/30/2009
Parke Bancorp, Inc.                                                         $16.29               1/30/2009
The Private Bank of The Peninsula/Peninsula Bank Holding
Co.                                                                          $6.00               1/30/2009
Peoples Bancorp, Inc.                                                       $39.00               1/30/2009
Pierce County Bancorp                                                        $7.00               1/23/2009
Plumas Bancorp                                                              $11.95               1/30/2009
Princeton National Bancorp, Inc.                                            $25.00               1/23/2009
Private Bancorp, Inc.                                                      $243.82               1/30/2009
Metropolitan National Bank/Rogers Bancshares                                $25.00               1/30/2009
Seaside National Bank & Trust                                                $6.00               1/23/2009
Southern Illinois Bancorp, Inc.                                              $5.00               1/23/2009
Stewardship Financial Corporation                                           $10.00               1/30/2009
Stone Bridge Financial Corp                                                 $11.00               1/23/2009
                           53
The Freeport State Bank                                                      $0.30                2/6/2009


52
     Repaid Treasury on April 22, 2009.


                                                           32
Institution Name                                           Funding (millions)       TARP Agreement Date
UBT Bancshares, Inc.                                                      $8.95                       1/30/2009
Valley Business Bank (Valley Commerce Bancorp)                            $7.70                       1/30/2009
W. T. B. Financial Corp/Washington Trust Bank                           $110.00                       1/30/2009
Washington First Bank                                                     $6.63                       1/30/2009
WSFS Financial Corporation                                               $53.00                       1/23/2009




53
  The Freeport State Bank was included in our survey, however, their closing date on the TARP funds was delayed
until February 6, 2009.


                                                      33
Appendix E––Reported Actual Uses by Month of
Disbursement, Asset Size, and Amount of
Funding
Table 6 shows the number of banks that reported actual uses of CPP funds for each major
category of use, segmented by the month when funds were disbursed.

Table 6: Actual Uses of CPP Funds by Disbursement Month
 Month Funds Disbursed                                     OCT           NOV        DEC     JAN 54        TOTAL
 Number of Banks                                                8          43        162       147          360
 Banks Reporting Uses for:
       Lending                                                  8          38        145       109          300
       Investment                                               5          20         54        31          110
       Debt Repayment                                           0           8         21        23           52
       Acquisition                                              0           5          7          3          15
       Capital Cushion or Other Reserves                        1          17         69        69          156
Source: SIGTARP analysis of survey responses.
Note: Some percentages may have been rounded beyond 0.5 percentage points in order to add up to 100 percent.



Table 7 shows the number of banks that reported actual uses of CPP funds for each major
category of use, segmented by the asset size of the recipient.

Table 7: Actual Uses of CPP Funds by Asset Size
                                                            $100B        $10B -     $1B -
 Asset Size                                      >$100B      - 10B         $1B      100M    <$100M        TOTAL
 Number of Banks                                      14            37     131       110          68        360
 Banks Reporting Uses for:
   Lending                                            14            32     113        87          54        300
       Investment                                     10            17      40        31          12        110
       Debt Payoff                                     0            5       26        10          11         52
        Acquisition                                    3            2           8      1              1      15
       Capital Cushion or Other Reserves               2            19      55        48          32        156
Source: SIGTARP analysis of survey responses.
Note: Some percentages may have been rounded more than 0.5 percentage points in order to add up to 100 percent.




54
     One bank that was included in our survey was delayed in closing on its TARP funds until February 6, 2009.


                                                           34
Table 8 shows the number of banks that reported actual uses of CPP funds for each major
category of use, segmented by the amount of funds received.

Table 8: Actual Uses of CPP Funds by Amount of Funds Received
Amount of TARP Funds Received                   >$10B      $1B - 10B      $100M - 1B        <$100M      TOTAL
Number of Banks                                      6            17               54           283        360
Banks Reporting Uses for:
  Lending                                            6            16               46           232        300
    Investment                                       3            10               24            73        110
    Debt Repayment                                   0             2                7            43         52
    Acquisition                                      0             5                1             9         15
    Capital Cushion or Other Reserves                1              5              25           125        156
Source: SIGTARP analysis of survey responses.
Note: Some percentages may have been rounded beyond 0.5 percentage points in order to add up to 100 percent.




                                                      35
Appendix F––Broad Impact of Receiving TARP
Funds
To illustrate the broad impact of receiving TARP funds, Table 9 shows the reported actions that
recipients would not have been able to achieve without TARP funding, and actions that
recipients were able to avoid due to TARP funding. The distribution of firms that addressed
these actions (in regards to the date of funding, the amount of funding received, and asset size)
was comparable to the distribution of all recipients.

Table 9: Broad Impact of Receiving TARP Funds Summary

Activity                                                                         Number of      Percentage of
                                                                                Institutions     Institutions 55
Without TARP funds institutions would not have been able to:
Grow Lending                                                                             34                  21
Enhance Lending Activity                                                                 21                  13
Improve Capital Position                                                                 16                  10
Conduct Loan Modifications                                                                8                   5
Grow Deposits                                                                             6                   4
Purchase Investments                                                                      6                   4
Reduce Loan Terms                                                                         4                   2
Pay Debt                                                                                  3                   2
Complete an Acquisition                                                                   3                   2
Because of TARP funds institutions were able to avoid:
Reducing Lending                                                                         46                  28
Reducing their Loan Portfolio                                                            17                  10
Shrinking their Balance Sheet                                                            14                   9
Freezing Lending                                                                         11                   7
Falling Below Well Capitalized Level                                                      5                   3
Job Reductions                                                                            2                   1
Exiting the Banking Business                                                             1                    1
Source: SIGTARP analysis of survey responses.
Note: Numbers and percentages do not total since respondents reported multiple uses of funds.




55
     Percentages are based on 163 recipients that responded to this question.


                                                           36
 Appendix G—Audit Team Members
This report was prepared and the review was conducted under the direction of Barry W. Holman,
Audit Director, Office of the Special Inspector General for the Troubled Asset Relief Program.
Other key SIGTARP staff included Michael Kennedy, James Shafer, Anne Blank, Trevor
Rudolph, and Kamruz Zaman. The Concentrance staff members who supported SIGTARP in the
audit and report development included Karmen Carr, Alex Kangelaris, Darius Grayson, Patricia
Taylor, Christopher Laughlin, Matthew Herman, Yusuf Makhkamov, and Mandy Ho.




                                             37
Appendix H––Management Comments




                   38
39
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement or misrepresentations affiliated with the
Troubled Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov                By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                 Hotline: Office of the Special Inspector General
                         For The Troubled Asset Relief Program
                         1801 L Street
                         Washington, D.C. 20220


Press Inquiries
Please contact our Press Office if you have any inquires:     Kristine Belisle
                                                              Director of Communications
                                                              Kris.Belisle@do.treas.gov
                                                              202-927-8940

Legislative Affairs
Please contact our Legislative Affairs Office for Hill inquires: Lori Hayman
                                                                 Legislative Affairs
                                                                 Lori.Hayman@do.treas.gov
                                                                 202-927-8941

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports please log on to our website at www.sigtarp.gov 




                                                 40
